                     Closeout of OTD 90-3119 j f i q €2- j;)


                                                   sent several
                                   s       n the TSF
                                                   Division of



OIG was able to resolve the allegations by writing to the
complainant and to the subject with specific questions and
analyzing the responses and also by examining internal N S F
records.
One allegation was that the subject was using a computer-produced
figure in a proposal to N S F that really was the intellectual
property of the complainant.      OIG found that the figure had
appeared in a published paper authored by the subject and the
complainant, among others. The figure was included in the part
of the proposal that reported work done in the subject's
laboratory under prior N S F grants, and it duly cited the paper.
OIG found that the subject acted properly in using the figure in
this way, even without asking the complainant's permission.
Another allegation was that an N S F program officer had a conflict
of interest in handling proposals from the subject. OIG found
that the program officer had given due notice of his conflict of
interest with the subject's institution and had not handled any
of the subject's proposals.
A third allegation is that the complainant had been forced to
rent a house from the subject, which was an abuse of the
subject's professional control over the complainant and a
financial conflict of interest. This allegation was found to be
unsupported.
Other complaints were found to be personal disputes or technical
matters that properly fall within the scope of the peer review
process, rather than misconduct matters.   As a result, the OIG
inquiry found all the allegations to be without merit, and the
case was closed.



                                                 t
                                                 C
                                                 -
                                                 --            -7



                                                 *
September 19, 1990                               \
